IN THE
SUPREME COURT OF THE UNITED STATES
No. ____________

OCTOBER TERM, 2019
_________________________________

MANUEL ACOSTA-LOPEZ,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent.
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW
Whether, in a run-of-the-mill drug smuggling case
between Mexico and the United States, is a
participant who had a managerial role in the offense
excluded from being considered an “average
participant” for purposes of the USSG § 3B1.2
minor role comparison group?

- Prefix -

TABLE OF CONTENTS
Authorities Cited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Prefix
Petition for Writ of Certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction and Citation of Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Sentencing Guideline Provision at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statement of Facts and Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Appendix:
Exhibit “A” (Ninth Circuit Court of Appeals
Memorandum)
Exhibit “B” (Ninth Circuit Order Denying Petition for
Rehearing and Suggestion for Rehearing En Banc)

i

TABLE OF AUTHORITIES
CASES
United States v. Aguilar Diaz, 884 F.3d 911, 917-18 (9th Cir. 2018) . . . . . . 19-20
United States v. McGee, 408 F.3d 966 (7th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 14
United States v. Rodriguez-Castro, 641 F.3d 1189 (9th Cir. 2011) . . . . . . . . . . . 12
United States v. Rojas-Millan, 234 F.3d 464 (9th Cir. 2000) . . . . . . . . . . . . . . . . 12
STATUTES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. SENTENCING GUIDELINE PROVISIONS
USSG §1B1.3(a)(1)-(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

12

USSG § 2D1.1(a)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
USSG § 3B1.1 cmt. n.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
USSG ch. 3, pt. B, introductory cmt. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
USSG § 3B1.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

USSG § 3B1.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
USSG § 3B1.2 cmt. n. 3(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
USSG § 3B1.2, cmt. n.3(C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5,18-19
U.S. SENTENCING COMMISSION MATERIALS
U.S. Sentencing Comm’n, Report to Congress: Mandatory Minimum
ii

Penalties in the Federal Criminal Justice System (Oct. 2011) . . . . . . . .

14,16-17

Sentencing Comm’n, Report to the Congress: Cocaine and Federal
Sentencing Policy (May 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15,17

USSG App. C. Amend. 794 (Nov. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17-18

iii

No. ____________

OCTOBER TERM, 2019
_________________________________

MANUEL ACOSTA-LOPEZ,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the United States Court of Appeals for the Ninth Circuit entered on May
14, 2020.

JURISDICTION AND CITATION OF OPINION BELOW
On May 14, 2020, the Ninth Circuit affirmed Petitioner’s conviction in
an unpublished Memorandum opinion, attached as Exhibit “A” to this petition. The
Ninth Circuit denied Petitioner’s petition for rehearing, and suggestion for rehearing
en banc, on August 20, 2020. [Ex. B.]. This Court has jurisdiction to review the
Ninth Circuit’s decision pursuant to 28 U.S.C. § 1254.
U.S. SENTENCING GUIDELINE PROVISION AT ISSUE
§3B1.2.

Mitigating Role

Based on the defendant's role in the offense, decrease the
offense level as follows:
(a)
If the defendant was a minimal participant in any
criminal activity, decrease by 4 levels.
(b)
If the defendant was a minor participant in any
criminal activity, decrease by 2 levels.
In cases falling between (a) and (b), decrease by 3 levels.
Commentary . . .
3.

Applicability of Adjustment.—

(A) Substantially Less Culpable than Average
Participant.—This section provides a range of adjustments
for a defendant who plays a part in committing the offense
that makes him substantially less culpable than the average
participant in the criminal activity.

2

INTRODUCTION
Petitioner asks the Court to grant review in this case to decide an
important question regarding the application of USSG § 3B1.2. Section 3B1.2
provides for a guideline reduction for a defendant who can establish that he was
“substantially less culpable than the average participant in the criminal activity.”
USSG § 3B1.2(b)(3)(A). Given this test for determining whether a defendant had a
minor role in an offense, the composition of the average participant comparative
group is a crucial part of the analysis.
In the instant case, the district court declined to consider the person who
recruited and managed Petitioner in this smuggling offense as an average participant
for purposes of the section 3B1.2 analysis. Although the Sentencing Commission
repeatedly has classified local managers as participants who fall in the middle of the
range of persons involved in a drug smuggling offense, thereby making them average
participants, the district court opined that this person was not an average participant
who should be considered in its analysis. Because minor role determinations have
immense impacts in drug cases given the operation of USSG § 2D1.1(a)(5), the Court
should review this case in order to provide much-needed guidance to lower courts as
to whether managers of a specific drug smuggling venture must be excluded from a
section 3B1.2 comparison group because they are not considered average participants.
3

STATEMENT OF FACTS AND CASE
A.

Arrest and Disposition
In November 2018, Petitioner was arrested while driving into the United

States through the Calexico, California port of entry. A search of the vehicle he was
driving revealed 27.5 kilograms of methamphetamine, and 810 grams of a mixture
containing fentanyl, concealed in the gas tank of the van. Petitioner was charged with
importation of a controlled substance, in violation of 21 U.S.C. §§ 952 and 960. [ER
27].1
Petitioner pled guilty to the charge pursuant to a written plea agreement.
[CR 21]. In his safety-valve debriefing, Petitioner explained that he met a man named
Manuel while was in Mexicali, Mexico. After learning that Petitioner was a United
States citizen who came to Mexico often to visit his family in Mexicali, Manuel
offered to pay Petitioner if he smuggled drugs across the border in a vehicle.
Petitioner did not agree to anything at that time, but did exchange phone numbers
with Manuel.
A few days later, Petitioner and Manuel spoke by telephone. Manuel
told Petitioner that the offer involved Petitioner meeting Manuel at a location in

“ER” refers to Appellant’s excerpts of record filed in the Ninth Circuit
Court of Appeals.
1

4

Mexico where Manuel would take his car, and then he would later return it to
Petitioner for him to drive across the border. Cocaine would be hidden inside the
vehicle, and for his participation in driving the drugs to a location in Phoenix,
Arizona, Petitioner would be paid $4000.00. Petitioner accepted the offer and
successfully crossed drugs into the United States on two occasions prior to his arrest.
The government determined that Petitioner was truthful in his recitation
of his involvement in the offense, and that he otherwise satisfied the safety-valve
requirements under the First Step Act, so it recommended a two-level reduction on
this basis. The government also recommended a three-level reduction for acceptance
of responsibility, but not a minor role reduction, asserting that Petitioner’s
“participation in planning or organizing the criminal activity cuts against a minor role
adjustment,” as did the nature and extent of Petitioner’s participation because it
showed a greater degree of decision-making authority, a greater level of
understanding of the scope and structure of the activity, and a greater benefit than a
minor participant. [ER 34-41].
Petitioner moved for a minor role reduction, arguing that the USSG §
3B1.2, cmt. n.3(C) factors strongly weighed in favor of a two-level minor role
adjustment, and that Petitioner demonstrated that he was substantially less culpable
than the other average participants in the offense. [ER 28-33]. The minor role
5

determination had a substantial effect on the Guidelines range. Without a minor role
application, Petitioner faced an advisory range of 151 to 188 months. With a minor
role finding, Petitioner’s range would have been less than half of that amount – 70 to
87 months.
B.

Sentencing Hearing
The district court denied a minor role adjustment:
THE COURT: Let me say very quickly that the standard in
determining whether a defendant is entitled to minor role
is whether the defendant is substantially less culpable than
the average participant in the offense. The Court has to be
convinced, more likely than not, that that’s true. And the
burden is on the proponent of the adjustment, in this case,
the defendant.
Did you identify other people, other than the recruiter, that
you wanted me to compare him to? I get it. I know there
are other likely people. There’s people that load the
automobile and all of that.
MR. BURCHAM [DEFENSE COUNSEL]: And in this
case, there’s also the person who modified the automobile.
It was a gas tank case.
THE COURT: Right.
MR. BURCHAM: And so in addition to someone
physically putting it in there, there was someone who had
the expertise to modify the vehicle, so -- but other than
that, the general person involved.
THE COURT: So the recruiter and then the person that
6

loaded it and modified the gas tank. And beyond that, I
guess we’d be speculating. I mean, I assume, and I know
you know from experience in handling these cases, that
there is a big organization that puts people like Mr. Acosta
up to this. And I know that, too, but it’s a question of how
far out I can go.
I mean, it doesn’t help much, because I can’t describe what
they did. I can’t describe the particular conduct of these
other people that I know exist.
MR. BURCHAM: Correct. I mean, the kingpin, obviously,
is not involved in that analysis.
THE COURT: Right.
MR. BURCHAM: I think we can work down from that
person, though, to people who -THE COURT: Blue collar functions.
MR. BURCHAM: Blue collar or low-level manager, if I
can use that, for people in the area of the border who are
managerial, but maybe not physically involved, but
managing but not the kingpin or close to that level. I think
they should be considered as well.
THE COURT: Okay. I’m in agreement with you, and I’ll
do that without violating the rule against speculating. The
Court must consider the factors set forth in 3B1.2. The first
is the degree to which the defendant understood the scope
and structure of the criminal activity.
Here the MO was the same all three occasions. He gets
caught the last time. He knew that they were loading dope
into the gas tank of his car. It was registered to him. And
he was driving over, turning his car over, they loaded the
7

dope in it, he came back. Was the drop-off place the same
each occasion?
MR. BURCHAM: Not exactly the same, but the same
general area.
THE COURT: Okay. So, I mean, he knew what was
expected of him. He knew what to expect, himself. And,
you know, the fact that he'd done this three times indicates
preparation, premeditation. The use of his own car
indicates that.
You know, I’m sure that the plan didn’t originate with him,
but he embraced it, and he helped the plan succeed at least
on two occasions. So it’s nothing in the first factor that
would push me toward a minor role.
Did he participate in the planning and organizing. Well, he
did. I’ve already spoken to that, by allowing his car to be
modified, turned over twice, and taking the drugs, he did
that. I don't think he exercised decision-making authority.
It was pretty clear to me here he was working at the behest
of someone else, who offered him, you know, money to do
this.
The nature and extent of his participation. Ms. McCollough
points out that it began in October. He’s finally arrested
November 16th. In between then, he makes two successful
runs. So he’s got a month and a half of involvement with
the drug organization. No telling how long it would have
gone on if he hadn't been caught. It wasn’t like he was
going to get to a certain amount of money and say, okay,
that's it, I’m not going to do this anymore. So he's flirting
with danger and risk, but he made the choice to do that.
So I don't see, on the fourth point, nature and extent of his
participation, and acts he performed, anything that would
advocate the finding that he had a minor role.
8

And it wasn't clear to me, or maybe I’ve forgotten, what
was he being paid for do this?
MR. BURCHAM: $4,000, Your Honor.
THE COURT: Each time?
MR. BURCHAM: Yes.
THE COURT: And he got paid the first two times?
MR. BURCHAM: Yes.
THE COURT: So that’s not an insubstantial amount. The
fact of the amount of the drugs here is also significant.
We’re dealing with not nearly as much as in the last case
which, you know, I told Mr. Rexrode I found to be a sit up
and take notice amount, but this is still a significant amount
of methamphetamine. It came out to about 24 kilos, over 50
pounds of pure methamphetamine. And then there was a,
what, about a kilo of fentanyl, is that what it was?
MR. BURCHAM: 800 grams.
THE COURT: Yeah, eight-tenths of a kilo, then. So
those are significant amounts. Look, he was recruited,
we don’t know much about the recruiter, other than the
recruiter is the person that was authorized by the drug
organization to offer him money, make the logistical
arrangements with him. Tell him he had to turn his car
over.
I assume that person is in Mexico and remains in
Mexico, and you know, we can’t put the “habeas
grabus” on him, and get him back over here, right? So
the defendant is left holding the bag, because he’s the
guy crossing. I don’t know. I just – I don’t have enough
9

facts to say, well, you know, he’s substantially less
culpable than the recruiter. Maybe he is, but at the
same time, maybe the recruiter is not an average
participant. He does, after all, have the authority to
offer money to people to make the arrangements for the
drugs to go into the car, to tell the importers of the
drugs -- and I’m sure Mr. Acosta wasn’t the only one –
where to go and what to do.
I mean, at a minimum, that guy sounds like more than
a recruiter, he sounds like an organizer. He was the
contact point for Mr. Acosta throughout this, right, in
Mexico?
MR. BURCHAM: Yes.
THE COURT: Yeah. So that’s what I’d say about that.
I don’t think I have enough information to say that Mr.
Acosta is substantially less culpable than he is. And
even if I could say that, I think it’s likely that that
person is not an average participant.
As far as the blue collar function, I know this is a matter of
disagreement, but I think it’s worse. I think it’s more
culpable to drive a drug-laden car across the border than it
is to perform what I’ve called the blue collar task of
outfitting a car, or taking the gas tank down, or loading the
drugs in.
Those are bad things, you know, but the guy that drives it
across, knowing all that’s been done, and I’m to find that
he’s substantially less culpable than those people? I don’t
know how you get to that qualitative judgment. I don’t
reach it. So with all respect, Mr. Burcham, I don’t find Mr.
Acosta had a minor role in this case.
[ER 6-11] (bolding added).
10

The district court imposed a sentence of 90 months in custody, to be
followed by five years of supervised release. [ER 42]. This sentence included a
downward variance from the applicable advisory guideline range of 151 to 188
months. [ER 19].
C.

Direct Appeal
On appeal, Petitioner argued that the district court erred in multiple

respects in its minor role analysis, including incorrectly determining who the average
participants in the case were, unreasonably comparing Petitioner’s role to that of the
other participants, and improperly applying the facts of this case to the five factors
contained in the application note to section 3B1.2. Petitioner argued that when the
proper pool of average participants in the instant case is compared to his role as a
mere courier of the drugs who acted exclusively at the direction of others, a minor
role adjustment should have been applied.
The Ninth Circuit disagreed, finding that the district court properly
considered the factors listed in the section 3B1.2 commentary, “identified other likely
participants in the scheme,” and “assessed whether Acosta-Lopez was ‘substantially
less culpable that the average participant.’” [Ex. A at 2]. The panel concluded that
“the district court did not clearly err in any of its factual findings, or abuse its
discretion by concluding that Acosta-Lopez was not entitled to a minor-role
11

reduction.” Id. The Ninth Circuit denied Petitioner’s petition for rehearing and
suggestion for rehearing en banc without further comment.
ARGUMENT
THIS COURT SHOULD GRANT THIS PETITION TO DECIDE
WHETHER LOCAL MANAGERS OR SUPERVISORS ARE AVERAGE
PARTICIPANTS FOR PURPOSES OF A MINOR ROLE ANALYSIS
A defendant has a minor role if he “plays a part in committing the
offense that makes him substantially less culpable than the average participant in the
criminal activity.” USSG § 3B1.2 cmt. n. 3(A); United States v. Rodriguez-Castro,
641 F.3d 1189, 1193 (9th Cir. 2011). When measuring a defendant’s culpability
relative to that of other participants, district courts must compare the defendant’s
involvement to that of all likely participants in the criminal scheme. United States
v. Rojas-Millan, 234 F.3d 464, 473 (9th Cir. 2000).
The Guidelines specify that the universe of comparison for determining
a defendant’s relative role includes the conduct of all those who participated in the
criminal scheme, even if not arrested or charged along with the defendant. See USSG
§ 3B1.1 cmt. n.1 (“A ‘participant’ is a person who is criminally responsible for the
commission of the offense, but need not have been convicted.”); USSG ch. 3, pt. B,
introductory cmt. (“The determination of a defendant’s role in the offense is to be
made on the basis of all conduct within the scope of §1B1.3 (Relevant Conduct), i.e.,
12

all conduct included under §1B1.3(a)(1)-(4), and not solely on the basis of elements
and acts cited in the count of conviction.”).
The district court declined to consider as part of the average participant
comparison group the person who recruited Petitioner and managed him in
connection with the offense. [ER 9-11]. In analyzing whether Petitioner occupied
a minor role in the offense, the district court only considered the blue-collar
participants who were responsible for modifying the van and who loaded and
unloaded the drugs. [ER 8]. The district court found that Petitioner was not
substantially less culpable than those participants. [ER 8]. As for the person who
recruited Petitioner and directed him in connection with the offense, the district court
found that it was “likely that that person is not an average participant,” as this person
“at a minimum . . . sounds like more than a recruiter, he sounds like an organizer.”
[ER 11].
A.

The Individual Who Recruited And Managed Petitioner
Was An Average Participant In The Offense
The district court’s approach to formulating its minor role comparison

group directly conflicted with the guidance from the Sentencing Commission as to
where local managers fall on the spectrum of participants in a drug smuggling
venture. More specifically, the district court’s position ignores the important

13

distinction between the role of a an organizer/leader in the organization itself who is
not an average participant in a drug smuggling offense, see United States v. McGee,
408 F.3d 966, 987 (7th Cir. 2005) (in order to be a minor participant, a defendant
must be substantially less culpable than the average participants in the conspiracy, not
substantially less culpable than its leaders), and a local manager of a particular event
who is an average participant.
The Sentencing Commission ranked the roles of participants in drug
trafficking organizations as part of its reports to Congress in 2007 and 2011. In the
Sentencing Commission’s 2011 report to Congress regarding mandatory minimum
penalties, the Commission assigned each offender in a drug case to one of 21 separate
function categories based on his or her most serious conduct as described in the
Presentence Report and not rejected by the court on the Statement of Reasons form.
See U.S. Sentencing Comm’n, Report to Congress: Mandatory Minimum Penalties
in the Federal Criminal Justice System at 165-67 & app. H (Oct. 2011). These 21
categories were combined into nine categories to facilitate analysis and presentation
of the data, and the following categories represent a list of decreasing culpability:
• High-Level Suppler/Importer: Imports or supplies large
quantities of drugs (one kilogram or more); is near the top
of the distribution chain; has ownership interest in the
drugs; usually supplies drugs to other drug distributors and
generally does not deal in retail amounts.
14

• Organizer/Leader: Organizes or leads a drug distribution
organization; has the largest share of the profits; possesses
the most decision-making authority.
• Grower/Manufacturer: Cultivates or manufactures a
controlled substance and is the principal owner of the
drugs.
• Wholesaler: Sells more than retail/user-level quantities
(more than one ounce) in a single transaction, purchases
two or more ounces in a single transaction, or possesses
two ounces or more on a single occasion, or sells any
amount to another dealer for resale.
• Manager/Supervisor: Takes instruction from higher-level
individual and manages a significant portion of drug
business or supervises at least one other coparticipant but
has limited authority.
• Street-Level Dealer: Distributes retail quantities (less
than one ounce) directly to users.
• Broker/Steerer: Arranges for drug sales by directing
potential buyers to potential sellers.
• Courier: Transports or carries drugs using a vehicle or
other equipment.
• Mule: Transports or carries drugs internally or on his or
her person.2

The report noted that “[t]erms used to describe offender function in this
analysis do not necessarily correlate with guideline definitions of similar terms.
For example, as seen below, the definition of manager/supervisor used in the
coding project to describe offender function does not match the guideline
definition of manager or supervisor in USSG §3B1.1 (Aggravating Role).”
2

15

Id.
The 2007 report found similarly with regard to the comparative role of
a local manager or supervisors who “[t]akes instruction from higher-level individual
and manages a significant portion of drug business or supervises at least one other
coparticipant but has limited authority.” See U.S. Sentencing Comm’n, Report to the
Congress: Cocaine and Federal Sentencing Policy at 17-18, app. C tbl. A-1 (May
2007). There, the Commission listed local managers or supervisors as the fourth most
culpable out of nine offender functions. Id. (finding managers/supervisors as the
fourth most culpable out of nine offender functions).
These findings by the Commission directly contradict the district court’s
finding that the person who recruited and directed Petitioner in connection with this
offense was not an average participant for purposes of a minor role analysis. By
incorrectly finding that a person who “[t]akes instruction from higher-level individual
and manages a significant portion of drug business or supervises at least one other
coparticipant . . . ,” U.S. Sentencing Comm’n, Report to the Congress: Cocaine and
Federal Sentencing Policy at 17-18, is not an average participant in the offense, the
district court improperly narrowed the section 3B1.2 comparative group to
Petitioner’s significant detriment. Here, this meant that a crucial point of comparison
for Petitioner’s minor role analysis was unfairly eliminated. The Court should review
16

this case in order to correct this incorrect, illogical, and highly prejudicial application
of section 3B1.2.
B.

Petitioner Was Substantially Less Culpable Than The
Average Participant In This Offense
The aforementioned error mattered here because, given the instant

record, a properly formulated comparison group would have required a minor role
finding in this case. Along with establishing where managers fall on the spectrum of
culpability among participants in a drug smuggling offense, the 2007 and 2011
reports also illustrates where drug couriers land on the function chart. The October
2011 report listed drug couriers like Petitioner as eighth in a nine-level hierarchy,
with only body-carrier mules below them at the bottom level. See U.S. Sentencing
Comm’n, Report to Congress: Mandatory Minimum Penalties in the Federal Criminal
Justice System at 165-67 (Oct. 2011). The 2007 report listed couriers/mules as
seventh out of eight types of offenders. See U.S. Sentencing Comm’n, Report to the
Congress: Cocaine and Federal Sentencing Policy at 18 (May 2007). These findings
regarding the relative position of couriers like Petitioner as compared to the other
average participants in this sort of offense demonstrate that the district court
improperly declined to find that Petitioner was “substantially less culpable” than any
other participants in the instant offense. [ER 7-11].

17

An application of Amendment 794 to the instant record requires the same
result. The Sentencing Commission enacted Amendment 794 because, “after
conducting an independent review, it found that minor role reductions were being
‘applied inconsistently and more sparingly than the Commission intended.’” United
States v. Quintero-Leyva, 823 F.3d 519, 522 (9th Cir. 2016) (quoting USSG App. C.
Amend. 794). “In determining whether to apply subsection (a) or (b), or an
intermediate adjustment, the court should consider the following non-exhaustive list
of factors[:]”
(I) the degree to which the defendant understood the scope
and structure of the criminal activity;
(ii) the degree to which the defendant participated in
planning or organizing the criminal activity;
(iii) the degree to which the defendant exercised
decision-making authority or influenced the exercise of
decision-making authority;
(iv) the nature and extent of the defendant’s participation
in the commission of the criminal activity, including the
acts the defendant performed and the responsibility and
discretion the defendant had in performing those acts;
(v) the degree to which the defendant stood to benefit from
the criminal activity.
For example, a defendant who does not have a proprietary
interest in the criminal activity and who is simply being
paid to perform certain tasks should be considered for an
18

adjustment under this guideline.
The fact that a defendant performs an essential or
indispensable role in the criminal activity is not
determinative.
Such a defendant may receive an
adjustment under this guideline if he or she is substantially
less culpable than the average participant in the criminal
activity.
USSG § 3B1.2, cmt. n.3(C).
Each of these factors strongly supports the conclusion that Petitioner was
a minor participant in this offense. Petitioner had a minimal understanding of the
scope and structure of the activity, as all he knew about this endeavor were the few
tasks that he was asked to perform, including dropping off his car, picking it up, and
then driving as directed to a drop-off point. This is in stark contrast with the local
blue-collar participants who were tasked with handling the drugs and modifying the
vehicle, and the local manager or supervisor who directed the local activities. See
United States v. Aguilar Diaz, 884 F.3d 911, 917 (9th Cir. 2018) (fact that Appellant
“kn[ew] little about the scope and structure of the criminal enterprise in which he was
involved . . . weighs in favor of granting a minor-role adjustment.” ).
As to Petitioner’s participation in planning or organizing the criminal
activity, all that Petitioner did in this respect was to drop off his van as directed.
There was a significant amount of planning and organization that went into this

19

venture, but in contrast with the blue-collar workers and local managers who handled
such tasks, Petitioner’s involvement in planning or organizing was virtually nonexistent.
As to the third factor, the district court agreed that Petitioner exercised
absolutely no decision-making authority, or had any influence on the exercise of
decision-making authority.

The fourth factor – the nature and extent of the

defendant’s participation in the commission of the criminal activity, including the acts
the defendant performed and the responsibility and discretion the defendant had in
performing those acts – likewise favors a minor role finding. Petitioner was a typical
drug courier who had no discretion of any sort and who performed nothing more than
typical drug courier acts. And as to the degree to which the defendant stood to
benefit from the criminal activity, Petitioner’s $4000 fixed payment for driving drugs
valued at forty times that amount strongly favors a minor role finding. See Aguilar
Diaz, 884 F.3d at 917-18 (court should look to the amount of payment relative to the
value of the drugs, whether the payment is fixed, and whether the defendant had a
proprietary interest in the drugs). Had the district court formulated a proper
comparison group and applied the undisputed facts to the correct average participants
in the offense, a minor role finding would have been required.

20

CONCLUSION
For the above reasons, Petitioner respectfully requests that the Court
grant the instant petition to review the decision of the Ninth Circuit Court of Appeals.
Respectfully submitted,

Dated: September 23, 2020

/s/ Gary Paul Burcham
GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

21

